Audit Report




OIG-10-052
SAFETY AND SOUNDNESS: Failed Bank Review of Olde Cypress
Community Bank
September 29, 2010




Office of
Inspector General
Department of the Treasury
 
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GE NE RAL
                                            September 29, 2010


             OIG-10-052

             MEMORANDUM FOR JOHN E. BOWMAN
                            ACTING DIRECTOR
                            OFFICE OF THRIFT SUPERVISION

             FROM:                 Susan L. Barron /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of Olde Cypress Community Bank


             This memorandum presents the results of our review of the failure of Olde Cypress
             Community Bank (Olde Cypress). Olde Cypress opened in January 1927 and had a
             main office in Clewiston, Florida, and four other offices located in Hendry County,
             Florida, and Polk County, Florida. The thrift was wholly owned by First Glades
             Corporation, a unitary thrift holding company. The Office of Thrift Supervision
             (OTS) closed Olde Cypress and appointed the Federal Deposit Insurance
             Corporation (FDIC) as receiver on July 16, 2010. As of March 31, 2010, the thrift
             had $169 million in total assets. FDIC estimated that the loss to the Deposit
             Insurance Fund is $31.5 million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Olde Cypress that was limited to (1) ascertaining the
             grounds identified by OTS for appointing the FDIC as receiver, and (2) determining
             whether any unusual circumstances exist that might warrant a more in-depth
             review of the loss. In performing our review we (1) reviewed documentation related
             to the appointment of FDIC as receiver; (2) reviewed OTS reports of examination
             for the 2-year period before the bank failure; and (3) interviewed OTS examination
             personnel.

             We conducted this performance audit during August and September 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-10-052
Page 2

Causes of Olde Cypress’s Failure
The primary causes of Olde Cypress’s failure were its aggressive growth strategy,
primarily in one- to four- family, nonresidential, and land loans, and diversification of
lending into other geographic areas of Florida during the peak of the real estate
market. The goal of the strategy was to diversify its geographic area and alleviate the
concentration and economic risks within its local market. However, the strategy
resulted in Olde Cypress expanding its lending activity to areas that suffered some of
the highest real estate depreciation rates in the country. These factors resulted in
significant increases in its problem assets and loan losses. In turn, the loan losses
significantly diminished earnings and capital and, ultimately, led to Olde Cypress’s
failure.


Conclusion
Based on our review of the causes of Olde Cypress’s failure and the grounds
identified by OTS for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the thrift’s failure or the supervision
exercised by OTS. Accordingly, we have determined that a more in-depth review of
the thrift’s failure by our office is not warranted.

We provided a draft of this memorandum to OTS management for comment. In its
response, OTS stated that the primary causes of Olde Cypress’s failure summarized
in this memorandum are consistent with the information contained in its reports of
examinations and documents in support of the grounds for receivership. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or Amni
Samson, Audit Manager, at (202) 927-0264.

Attachments
         OIG-10-052

       Attachment 1
Management Response
                                                   OIG-10-052

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
